               March 30, 2004

               MEMORANDUM
               FOR: 	        Acting Mission Director, USAID/Serbia and Montenegro,
                             William Foerderer

               FROM:         Regional Inspector General/Budapest, Nancy J. Lawton /s/

               SUBJECT:	     Risk Assessment of USAID/Serbia and Montenegro (Report No.
                             B-169-04-002-S)


               This memorandum is our report on the subject risk assessment. This is not an
               audit report and does not contain any recommendations for your action.

               Thank you for providing comments to the draft report. Your comments are
               included in Appendix II of this report.

               I appreciate the cooperation and courtesy extended to my staff during the risk
               assessment.




Background 	   The Republic of Serbia and the Republic of Montenegro within the Federal
               Republic of Yugoslavia (FRY) formed the state union of Serbia and Montenegro
               on February 4, 2003. Since its transition from an authoritarian to an elected
               civilian government, the Government of the Federal Republics of Serbia and
               Montenegro continues to rebuild its government and social institutions, and is
               attempting to revitalize its economy under challenging political and economic
               conditions.

               USAID/Serbia and Montenegro consists of a Controller’s Office, an Executive
               (Administration) Office, and four Program-related Offices:

                   •	 an Economic Policy and Finance Office responsible for economic policy,
                      financial system reform, Micro and Small and Medium Enterprise (SME)
                      finance programs;


                                                                                                1

    •	   a General Development Office responsible for community and local
         development programs;

    •	 a Democracy and Governance Office responsible for Non-Governmental
       Organization independent media, political party process and trade union
       programs; and

    •	 a Program Office, responsible for the Mission's strategy and for program
       coordination.

USAID/Serbia and Montenegro programs and their approximate fiscal year 2001,
2002 and 2003 funding levels, in millions, are presented in the following table:

                                                   Appropriated Program Funds
         USAID/Serbia and Montenegro
                                                 FY 2001    FY 2002     FY 2003
 Economic Policy and Finance Office
 Strategic Objective - 1.3 Accelerated
                                                     $7.8        $15.5       $25.0
 Development and Growth of Private
 Enterprise
 Democracy and Governance Office
 Strategic Objective - 2.0 - More Effective,
                                                      0.0          0.0        14.3
 Responsive and Accountable Democratic
 Institutions
 General Development Office
 Strategic Objective - 2.1 - Increased, Better
                                                     32.1         52.4        53.2
 Informed Citizens’ Participation in Political
 and Economic Decision Making
 Total Appropriated Program Funds                   $39.9        $67.9       $92.5

The General Accounting Office (GAO) has stated in the Standards for Internal
Control in the Federal Government that internal controls are an integral
component of an organization’s management. They should provide reasonable
assurance that the following objectives are being met: effectiveness and efficiency
of operations, reliability of financial reporting, and compliance with applicable
laws and regulations. GAO has stated that internal control should provide for an
assessment of the risks the agency faces from both external and internal sources.
This survey focused on the risk assessment component of internal controls.

The purpose of this survey is to identify significant areas of vulnerability within
USAID/Serbia and Montenegro’s administrative and program operations and to
assist RIG/Budapest in planning future audits.

Appendix I contains a discussion of the scope and methodology for this
assessment.


                                                                                 2

Discussion   In judging the risk exposure for the offices in USAID/Serbia and Montenegro, we
             considered:

                •	 the amount of funding the individual programs received relative to the
                   overall mission budget,

                •	 the level of involvement and support provided by the Government of
                   Serbia and Montenegro,

                •   the experience of key staff members,

                •	 the adequacy of written procedures and the level of compliance with
                   procedures throughout the Mission,

                •   the adequacy and use of performance standards and internal audits,

                •	 evidence of consistent implementation of activities that clearly support
                   program objectives,

                •	 the adequacy of physical security for the office and controls over its data
                   systems, equipment and vehicles,

                •	 the existence of internal controls surrounding the items judgmentally
                   selected for review, and

                •	 correction of Mission-identified weaknesses from the Federal Managers’
                   Financial Integrity Act (FMFIA) report for fiscal year (FY) 2003.

             Our assessment for each program-specific and functional office is described in the
             following pages.




                                                                                             3

                Function Description                              Risk Exposure
Economic Policy and Finance Office (EPFO): This                     Moderate
office is responsible for Strategic Objective 1.3:
Accelerated Development and Growth of Private
Enterprise.
                          Risk Assessment Factors

•   This area received 27 percent of the Mission’s FY 2003 funding. In addition,
    total funding has more than tripled in the past three years, from $7.75 million to
    $25 million.

•   The instability of the Government of Serbia and Montenegro and the continued
    incidents of political violence and disputes may limit program success.

•   While the staff appeared to be knowledgeable about the various institutions,
    most staff members are relatively new to USAID.

•   EPFO staff does not always contact the Mission’s Regional Contracting Officer
    in Budapest of contractual problems. As a result, some contractor issues
    requiring official clarification or action have not been addressed.

•   Key implementing partners have resigned, and the critical institutional
    knowledge that they contributed to the program may be difficult to replace.

•   Staff clearly understood USAID policies and procedures, although the area
    covering cognizant technical officer (CTO) responsibilities should be reviewed
    and clarified regarding certain contract oversight responsibilities.

•   Implementing partners did not always meet program or administrative objectives
    resulting in the termination of one contract.

•   In some cases implementing partners had not received CTO designation letters
    which identify the appropriate USAID/Serbia and Montenegro staff member
    providing oversight of their award. Unless roles and responsibilities are clearly
    defined and understood by all parities, there may be confusion regarding such
    issues as approval of contractor personnel and other contract administration
    issues.

•   The Mission’s Federal Managers’ Financial Integrity Act (FMFIA) report for
    FY 2003 did not disclose any material weaknesses.




                                                                                    4

                   Function Description                          Risk Exposure
Democracy & Governance Office: This office is                         Low
responsible for Strategic Objective 2.0: More Effective,
Responsive and Accountable Democratic Institutions.
                             Risk Assessment Factors

•   FY 2003 budget amount of $14.4 million represents only 14 percent of the
    Mission’s program budget.

•   Unresolved ethnic tensions and uncertain future relationships with
    Montenegro and Kosovo create significant program challenges.

•   The office is staffed by an experienced team of professionals including a
    recently-hired Rule of Law advisor.

•   The office actively monitors program activities.

•   The office supports numerous individual projects to build democratic
    institutions through an independent media, impartial courts, free and fair
    elections, and effective political parties.

•   The Mission’s FY 2003 FMFIA report did not disclose any material
    weaknesses.



                   Function Description                          Risk Exposure
General Development Office (GDO): This office is                   Moderate
responsible for Strategic Objective 2.1: Increased,
Better-Informed Citizens’ Participation in Political and
Economic Decision-Making.
                             Risk Assessment Factors

•   This office received $53.2 million, or 57 percent, of the Mission’s FY2003
    program funds.

•   The GDO has high dollar value programs. The combined programs of the
    Serbian Local Government Reform Program (SLGRP) and the Community
    Revitalization through Democratic Action (CRDA) have over half of the
    Mission’s funding. The SLGRP is a three-year project with two, one-year
    options for a total of $29 million. CRDA is planned as a five-year, $200
    million program.




                                                                                 5

•	 The GDO has very qualified and experienced staff. The manager of GDO has
   over 15 years experience with USAID. Two of three CTOs have not been
   certified as CTOs, although one has 13 years experience with USAID and has
   taken previous CTO courses. The least experienced CTO with only one and a
   half years’ experience with USAID has taken the CTO training and is
   certified.

•	 While there is good acceptance of GDO’s programs by communities and local
   governments, there is uncertainty about the stability of Serbia and Montenegro
   including changes resulting from governmental elections.

•	 The GDO has a small and cohesive staff. Technical contracting issues are
   passed on to the Regional Contracting Officer for resolution.

•	 The CRDA program has five implementing partners. Five implementing
   partners for one program could make it difficult to obtain consistent and
   meaningful reporting on performance indicators; however, work is currently in
   progress to address this concern.

•	 The CRDA program has a monitoring and verification system in place.
   Implementing partners enter program data as it occurs into a web-based data
   collection system which can be verified and monitored by staff in four field
   offices. In addition, CTOs make frequent site visits and communicate with the
   implementing partners.

•	 Grantees in the GDO are generally U.S. firms and fall under Office of
   Management and Budget (OMB) Circular A-133 entitled, “Audits of States,
   Local Governments, and Non-Profit Organizations.” Although USAID/OIG
   has oversight responsibility, certified or independent public accounting firms
   perform these audits.

•	 The Mission’s FY 2003 FMFIA report did not disclose any problems with the
   GDO.


                 Function Description                           Risk Exposure
Program Office: This office is responsible for country               Low
planning formulation, program development, program
budget management, and public awareness of the
program.
                           Risk Assessment Factors

•   The office is staffed by an experienced team of professionals.




                                                                                    6

•	 The office’s main activities, including the Strategic Plans, Annual Reports,
   and Congressional Budget Justifications for both Serbia and Montenegro, are
   subject to several layers of Mission and Washington review.

•	 The office’s main activities are also subject to USAID/Washington’s detailed
   annual instructions and published guidance.

•	 The office in Serbia is responsible for Serbia as well as Montenegro’s
   Strategic Plan, Annual Report, and Congressional Budget Justification. This
   requires an ongoing coordination of efforts between the two locations.

•	 The Mission’s FY 2003 FMFIA report did not disclose any material
   weaknesses.


                      Function Description                        Risk Exposure
    Executive Office: This office manages administrative            Moderate
    functions such as personnel management, general
    services, motor pool, and property management.
                                 Risk Assessment Factors

•     While the executive officer (EXO) in Serbia has been with USAID since 1995,
      the other staff is fairly new to USAID. However, there has been virtually no
      staff turnover. The Mission has recently hired an EXO to manage
      administrative functions in the Montenegro Office.
•
      The EXO is responsible for administration and internal management activities
      of the Mission and must work with numerous laws, regulations and standard
      operating procedures, including, procurement and local labor laws, State
      Department regulations for travel and education, funding regulations, and
      computer security. Such multiple requirements demand significant staff
      attention.

•     The Mission’s operating expense budget for FY 03 was $2.6 million. This
      provides for the basic support of the Mission.

•     The EXO and her staff appear to be aware of their responsibilities and internal
      controls. We noted the use of appropriate internal controls related to (1)
      personnel management, (2) Mission security plan, (3) inventory control, (4)
      computer access controls and security and (5) motor pool operations.
      However, we also noted some areas of concern: (1) infrequent monitoring of
      security logs and (2) no approval or testing of the Emergency Action Plan or
      Disaster Recovery Plan. Although we did not note any problems with the
      procurement and receiving functions, the Mission should continue to monitor
      the overall processes for the acceptance and receipt of goods and services on a
      regular basis to maintain adequate separation of duties.


                                                                                    7

•	 The Mission’s FY 2003 FMFIA report disclosed the following weaknesses:
   (1) risk assessment has not been performed, (2) contingency plan has not been
   developed, (3) the contingency plan has not been tested and (4) the disaster
   recovery plan has not been developed.


                 Function Description                               Risk Exposure
Controller’s Office: This office is responsible for the               Moderate
financial management of the Mission’s programs and
operations.
                           Risk Assessment Factors

•   Although the controller’s functions are divided between Serbia and Montenegro,
    the controller can provide only limited oversight for operations in the
    Montenegro office. This may increase the risk that (1) individuals may act
    outside the scope of their responsibilities, (2) financial reporting may be delayed,
    and (3) funds violations may occur. The Mission has reported such violations in
    the past.

•   Staff appeared to be knowledgeable and experienced relating to job
    responsibilities, however, most of the staff is relatively new to USAID.

•   Unannounced cash counts are conducted periodically although the
    documentation of the results of cash counts are not always maintained at the
    Mission as required by 4 FAH-3 H 397.1-2, Verification of Funds—General
    Provisions.

•   The newly implemented MACSTRAX system allows for real time accounting
    and processing of vouchers, but all required staff has not been trained to use this
    system.

•   The controller’s staff backstop each other for various internal accounting
    functions. While such a system can improve the efficiency of operations,
    appropriate staff training and management supervision is needed to ensure that
    appropriate internal controls, including the separation of duties, are maintained.

•   The Mission receives a large number of vouchers from local and international
    vendors; unless vouchers are properly managed, the Mission may be liable for
    the payment of penalty interest.

•   Vendors request cash payments which create greater administrative burdens than
    payments by check or wire transfer.




                                                                                      8

              •	 The Mission has experienced problems ensuring the timely collection of funds
                 owed as required by the Prompt Payment Act. The office now notifies
                 employees immediately.

              •    The Mission’s FY 2003 FMFIA report did not disclose any material weaknesses.




Conclusion	   We examined the risk associated with the various aspects of the
              USAID/Serbia and Montenegro Mission. The table below
              summarizes the conclusions.

                      USAID/Serbia and Montenegro                    Risk Exposure
                                   Functions                    High   Moderate    Low
                  Economic Policy and Finance Office                       9
                  Democracy and Governance Office                                   9
                  General Development Office                               9
                  Program Office                                                    9
                  Executive Office                                         9
                  Controller’s Office                                      9

              We believe that much of the risk associated with USAID/Serbia and Montenegro’s
              program objectives not being met are due to the uncertainty of political and
              economic reforms. We also found instances where the Mission has appropriately
              identified and disclosed weaknesses, and taken aggressive action to correct
              problems. In some cases, however, additional management action and improved
              procedures are needed to ensure adequate program controls.

              Based on our observations, conversations and limited review of documentation,
              we are offering the following suggestions for Mission management’s
              consideration. These suggestions are not formal audit recommendations and do
              not necessarily represent deficiencies, but involve possible improvements or
              enhancements to activities which could already be in progress. Specifically:

                   •	 The Mission should assure that CTOs attend CTO training and
                      Supervisory CTO’s attend the Supervisory CTO training; and,

                   •	 The Mission should assure that CTOs and other implementers understand
                      the scope of CTO responsibilities. We also believe that discussions with
                      the RCO could help clarify the CTO’s responsibilities and would alleviate
                      any appearance of an overlap of CTO and RCO responsibilities.




                                                                                                  9

Management       USAID/Serbia and Montenegro Mission officials generally agreed with the
Comments and     contents of our risk assessment of some of its operations. In its comments, the
Our Evaluation   Mission provided two corrections to our background section as well as additional
                 information on its offices. We have incorporated some of the information in the
                 final report, where appropriate.

                 The Mission also responded positively to our concluding suggestions on CTO
                 training and responsibilities and discussions with the RCO.

                 The full text of USAID/Serbia and Montenegro’s comments is included as
                 Appendix II to this report.




                                                                                              10

                                                                                    Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/Budapest conducted this risk assessment to gain
              an understanding of the programs and activities of USAID/Serbia and
              Montenegro. This was not an audit and does not contain any formal
              recommendations. The risk assessment was conducted at USAID/Serbia and
              Montenegro (Serbia) from October 6–24, 2003. To date there has been no
              program audits in Serbia and Montenegro, thus, the purpose of this assessment
              was to identify the more significant areas of vulnerability within USAID/Serbia
              and Montenegro’s administrative and program operations and to assist
              RIG/Budapest in planning program audits for fiscal year 2005 and beyond.

              The risk assessment focused primarily on fiscal years (FY) 2003 and 2004 data
              and, as necessary, data from previous years. USAID/Serbia and Montenegro has
              never been subjected to review by RIG/Budapest, As a result, our period of
              review also covered various transactions since the start of the Mission during
              calendar year 2000.

              Methodology

              To perform this risk assessment, we interviewed USAID/Serbia and Montenegro
              personnel and examined documentation to obtain an understanding of the
              Mission’s objectives, programs and activities. We assessed selected controls at the
              Mission and the Strategic Objective (SO) team levels to determine if they were
              adequate and working as designed. We also interviewed the personnel of the
              implementing partners for some of these activities to obtain an understanding of
              the program and internal controls. We judged risk exposure by considering the
              likelihood of: significant abuse, illegal acts, and/or misuse of resources, failure to
              achieve program objectives, noncompliance with laws, regulations and internal
              policies. We assessed overall risk exposure as low, moderate, or high. A higher
              risk exposure simply indicated that the particular function is more vulnerable to
              not achieving its program objectives or to experiencing irregularities.

              Our overall risk assessments did not make definitive determinations of the
              effectiveness of internal controls. As a part of the scope of our review, we (a)
              identified a judgmental sample of transactions, (b) obtained an understanding of
              the components of the internal controls related to the relevant sample selected,
              and (c) assessed what was already known about the internal controls. Also it
              should be noted, we did not (a) assess the adequacy of the internal control design,
              (b) determine if controls were properly implemented, or (c) determine if
              transactions were properly documented.



                                                                                                 11

Our risk assessment of USAID/Serbia and Montenegro considered the following
limitations:

   •	 Higher risk exposure assessments are not definitive indicators that
      program objectives were not being achieved or that irregularities were
      occurring. A higher risk exposure simply implies that the particular
      function is more vulnerable to the occurrence of such events.

   •	 Comparison of risk exposure assessments between organizational units
      and implementing partners is of limited usefulness due to the fact that the
      assessments consider both internal and external factors, some being
      outside the span of control of management.

   •	 Risk exposure assessments in isolation are not an indicator of
      management’s capabilities due to the fact that the assessments consider
      both internal and external factors, some being outside the span of control
      of management.

We judgmentally determined a risk level of low, moderate, or high for the
Mission’s various programs and offices. The final assignment of the risk level to
an office was judgmentally determined considering the external factors which
could have had an effect on the programs in some cases. We also assessed how
sufficiently we believed the strategic objectives (including implementing partners)
or the offices had met the prescribed regulations, operating guidelines and internal
control procedures in its program, financial, accounting and administrative
management.




                                                                                 12

                                                                                                        Appendix II

Management
Comments


                      UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

                      Serbia and Montenegro 

                      American Embassy, Belgrade 





MEMORANDUM

TO:                       Nancy Lawton, RIG/ Budapest

FROM:                     William S. Foerderer, Acting Mission Director

DATE:                      March 11, 2004

SUBJECT:            Draft Report on the Risk Assessment of USAID Serbia and
                    Montenegro
_____________________________________________________________________
       The Mission Management reviewed the subject draft report and generally agrees with its content.
Following are Mission comments on several sections of the draft report and the suggestions offered.
        The Mission recommends two changes in the Background section to correctly state the name of the
country and clarify its recent history:
      1.	 The 2003 Constitutional Charter of Serbia and Montenegro adopted the name of the State Union of
          Serbia and Montenegro.
      2.	 There was no military government, rather the country transitioned from the semi-authoritarian
          Milosevic-led government to a democratically oriented government in late 2000.

COMMENTS RECEIVED FROM THE ECONOMIC POLICY AND FINANCE OFFICE (EPFO):

      •	 The EPFO notes that SO 1.3, as originally conceived, was to receive $30 million per year. Since 2001,
         this SO received significantly less than the planning levels with only 2003 approaching the $30 million
         threshold. So, while it is true that SO 1.3 funding increased significantly between 2001 and 2003,
         systems and procedures are in place to accommodate anticipated annual funding greater than what has
         been received.
      •	 FSN and expatriate staff have significant experience in their respective fields of banking, commercial
         law and small and medium enterprise development, thus their knowledge of host country institutions is
         extremely comprehensive. Although Foreign Service National staff in the EPFO are relatively new to
         the Agency, all professional staff are certified Cognizant Technical Officers having successfully
         completed the requisite courses in 2001 and 2002. Support staff received appropriate training in files
         management, and took the Planning, Achieving, Learning (PAL) course providing an overview of
         USAID systems and the budget processes.



                                                                                                                   13

  •	 CTOs are in regular contact with the Regional Contracting Officer, and engage the RCO in all matters of
     contract and cooperative agreement management. These initiatives successfully remedied issues in a
     timely and efficient manner.
  •	 The EPFO has seven awards instrument and one tender. With only one exception, there has been
     continuity and stability in the staffing of each. In one instance, a project endured significant staff
     turnover and the RCO has been intimately engaged in resolving this matter to the satisfaction of the
     Mission.
  •	 Professional and support staff received appropriate general and specific training related to USAID
     systems and procedures, acquisition and administration. Additional training will be scheduled as a part
     of the regular process of skills building and staff strengthening.

COMMENTS RECEIVED FROM THE GENERAL DEVELOPMENT OFFICE (GDO):
  •	 In response to the lack of CTO training mentioned in the report, the GDO took action to ensure that
     all CTOs will attend training this year. The Office Director completed the Supervisory CTO
     courses in February, 2004, and is certified. The two uncertified CTO’s are scheduled to take the
     CTO training in April and August, respectively. Additionally, a senior Foreign Service National
     staff member will be enrolled in the CTO courses this fiscal year. Hence, by the end of fiscal year
     2004, the GDO will have five certified CTOs.


COMMENTS RECEIVED FROM THE EXECUTIVE OFFICE:

  •	 The EXO and her staff appear to be aware of their responsibilities and internal controls. We noted
     the use of appropriate internal controls related to (1) personnel management, (2) Mission security
     plan, (3) inventory control, (4) computer access controls and security, and (5) motor pool
     operations. However, we also noted some areas of concern: (1) infrequent monitoring of security
     logs, (2) weak separation of duties between the procurement assistant and the receiving clerk, and,
     (3) no approval or testing of the Emergency Action Plan or Disaster Recovery Plan.

  Areas of concern:

  (1) infrequent monitoring of security logs,

  When USAID migrated to Windows 2000, it moved most of the security monitoring functions back to
  IRM in Washington. The EXO/ISSO requested guidance from the AGENCY/ISSO on what monitoring
  needed to be done. None was provided. The Executive Officer has asked for guidance again and, when
  received, will set up a schedule for monitoring.

  The Mission Systems Manager monitors security logs. He examines the Security Logs under the event
  viewer on a weekly basis. The audit logs of the USAID.YU website server, hosted externally, are also
  monitored by him. Finally, the Assistant Systems Manager reviews the Antivirus Definitions Log daily
  to update antivirus protections and see what events occurred.

  (2) weak separation of duties between the procurement assistant and the receiving clerk,

  As per telephone discussions between D/RIG Jacqueline Bell, Auditors Gardenia Franklin and Gweneth
  Hughes, TDY RSC/RMSO Executive Officer Jerry Nell and myself on March 8, we believe there is
  adequate separation of duties.




                                                                                                               14

According to Gweneth Hughes, who assessed the EXO operations, the Procurement Agent stated that he
“receives” goods from vendors and thus there is a risk because the person ordering the goods also
“receives” the goods. However, the receiving function is not executed by the Procurement Agent, rather,
he performs the acceptance function for locally procured goods.

Goods are “ordered” by the Executive Officer and other Mission staff. Staff place orders via the
Procurement Request function of EXOAPPS (an electronic Executive Office management program).
The request must be approved by the Executive Officer. Once approved, it is forwarded to the
Procurement Agent who identifies vendors and competes the procurement per FAR/AIDAR regulations.
For more complex procurements, the Procurement Agent works with the Executive Officer who provides
guidance. Depending on cost, procurements are effected either by Petty Cash or with a Purchase
Order/Contract. The Procurement Agent prepares the Purchase Orders/Contracts which are reviewed by
the Executive Officer (including Memorandums of Negotiation), scrutinized and funds reserved by the
Controller’s Office, and finally signed by the Executive Officer. The Procurement Agent is responsible
for all interactions with vendors from the time when quotes are requested through the delivery of goods
to USAID. This includes following up on delivery dates, shipping problems, as well as ensuring that
invoices are received.

When the Procurement Agent accepts the goods from local vendors, he verifies that they match the
goods ordered and then turns them over Property/Receiving Clerk who officially receives them. We do
not want the Property/Receiving Clerk to be interacting directly with vendors since this would allow for
an even greater risk since that individual could claim that goods were “received”, control the receiving
records, and have no other party between the vendor and the receiving function.

The Property/Receiving Clerk receiving function includes matching the goods ordered with the
procurement documents and preparing receiving reports. Completed receiving reports are handed over
to the GSO for entry into the NXP Bar Scan data base for non-expendables, into stock control cards for
expendable items, or delivered to the requestor for special order items. Invoices are not paid until the
Property/Receiving Clerk, or person ordering the goods or services, verifies their receipt. In this manner,
the Procurement Agent can not claim that goods have been received and process the invoices without
verification of another person as well as a review by the Executive Officer.

(3) no approval or testing of the Emergency Action Plan or Disaster Recovery Plan.

The Emergency Action and Disaster Recovery Plans are in process and all testing, etc. should be
completed within one month from this response.


“The Mission’s Federal Managers’ Financial Integrity Act (FMFIA) report for FY 2003 disclosed the
following weaknesses: (1) risk assessment has not been performed, (2) contingency plan has not been
developed, (3) the contingency plan has not been tested, and, (4) the disaster recovery plan has not been
developed.”

The following are updates of the FMFIA FY2003 report:

(1) risk assessment has not been performed,

As discussed with Gweneth Hughes, an assessment by RSC/RMSO Executive Officers was requested
last fall. The assessment is currently underway and will be completed by March 26th. It should also be
noted that having an assessment prior to this time was not practical since the Mission was in the start-up
phase.



                                                                                                              15

   (2) contingency plan has not been developed, (3) the contingency plan has not been tested, and, (4) the
   disaster recovery plan has not been developed.

   The contingency plan is comprised of the Emergency Action and Disaster Recovery Plans. As stated
   above, it is being developed and will be tested shortly.


COMMENTS RECEIVED FROM THE CONTROLLER’S OFFICE:
   •	 The Mission disagrees with the statement in the Controller’s Office assessment that “…the results of
      cash counts are not always documented.” 4 FAH-3 H-397.1-2, Verification of Funds—General
      Provisions, requires a monthly, surprise cash count which is documented, signed and dated by all
      parties, and sent to the servicing United States Disbursing Officer. Noncompliance with this
      regulation will result in the discontinuance of the cashier operations. The Mission is in compliance
      with the cash count and reporting requirements and will make all requisite documents available at
      the RIG’s request.
   •	 The Controller’s Office Assessment states that “…all required staff have not been trained to use this
      system.” The Mission notes that all Controller’s Office staff members, with the exception of the
      newly-hired Voucher Examiner, were trained to use either MACS or MACSTRAX, depending on
      their positions, at the time of the Team’s visit. Since then, the Voucher Examiner has been fully
      trained.


MISSION’S COMMENTS IN RESPONSE TO THE SUGGESTIONS GIVEN IN THE DRAFT
REPORT:


   •	 The USAID/Serbia and Montenegro Mission reopened in early 2001, and new staff, both expatriate and
      Foreign Service National, have been recruited since that time. All staff is receiving appropriate and
      relevant training, including that which is related to CTO functions and responsibilities. Professional
      project management staff have been certified as CTOs as expeditiously as possible and practicable.
      Supervisory CTO training has been scheduled since the conduct of the RIG’s Assessment, and relevant
      staff has commenced taking this advanced level of training. Staff joining the Mission in 2004 will
      similarly be scheduled for Supervisory training at the earliest possible time.
   •	 The Mission will continue to support CTO and Supervisory CTO training for all relevant and
      appropriate staff. The Mission will continue to work closely with the RCO to ensure that duties and
      responsibilities are appropriately and efficiently dispatched.
   •	 USAID/Serbia and Montenegro will continue to work closely and cooperatively with the RCO in order
      to ensure that roles and responsibilities are clearly defined. In addition to the review of the authorities
      delegated to CTOs in the CTO designation letters that are in place for each project, and which are on
      file, the Mission will ensure that all elements of these letters are heeded and not exceeded.



    Thank you for taking the time to conduct this assessment. The Mission is committed to reducing risk
and appreciates the efforts made by your Assessment Team toward helping the Mission achieve this goal.
   Please do not hesitate to contact me or my staff if you need additional information to finalize this report.




                                                                                                                    16

